No. 20-7984
In the Supreme Court of the United States
___________
EDDIE LAMONT LIPSCOMB,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent,
___________
PETITIONER’S APPLICATION TO SHORTEN THE TIME BEFORE
ISSUING JUDGMENT
___________
To:

The Honorable Samuel A. Alito, Jr., Associate Justice of the Supreme Court
and Circuit Justice for the Fifth Circuit.
Pursuant to Supreme Court Rule 45.3, Petitioner Eddie Lamont Lipscomb

respectfully moves the Court to shorten the time before issuing its judgment, and to
immediately issue the judgment, upon granting his Petition for Certiorari.
Basis for Jurisdiction
The district court had original jurisdiction over the underlying criminal case
pursuant to 18 U.S.C. § 3231. Mr. Lipscomb filed a motion to vacate his Armed Career
Criminal Act sentence, and the district court had jurisdiction to grant relief under 28
U.S.C. § 2255. The Fifth Circuit had jurisdiction over the Government’s appeal under
18 U.S.C. § 3742(b) and 28 U.S.C. § 2253(a).
This Court has jurisdiction to review the Fifth Circuit’s judgment in favor of
the Government pursuant to 28 U.S.C. § 1254(1).

Judgment to be Reviewed and Opinions Below
The Fifth Circuit panel’s opinion is published at 982 F.3d 927. It is reprinted
at pages 1a–6a of the Petition Appendix. The Fifth Circuit’s prior opinion on direct
review was published at 619 F.3d 474, and is reprinted on Pages 29a–61a of the
Petition Appendix.
Facts in Support of Application
Mr. Lipscomb successfully moved to vacate his Armed Career Criminal Act
sentence under 28 U.S.C. § 2255(h). Years after he was released from prison, the Fifth
Circuit reversed the district court’s decision granting relief and order the court to
reinstate the original, ACCA-enhanced sentence. Pet. App. 6a. The Government now
acknowledges that the Fifth Circuit’s decision should be vacated. U.S. Mem. 2.
Because the Fifth Circuit’s decision resulted in Mr. Lipscomb’s reimprisonment, he
asks this Court not to wait the typical 25 days before issuing its judgment. See S. Ct.
R. 45.2, 45.3. He asks instead that the Court issue its judgment immediately, so that
he might seek immediate release in the courts below.
1.

Mr. Lipscomb moved to vacate his Armed Career Criminal Act sentence,

arguing that Texas robbery would not count as a “violent felony” without the ACCA’s
unconstitutional residual clause. 18 U.S.C. § 924(e)(2)(B)(ii). The district court
agreed, and on July 9, 2018, the court re-sentenced Mr. Lipscomb to the non-ACCA
statutory maximum of 120 months in prison. Pet. App. 21a–23a; see 18 U.S.C.
§ 924(a)(2). Because Mr. Lipscomb had already served much longer than ten years in
prison, he was immediately released. Pet. App. 2a.

2

2.

The Government appealed the district court’s decision, but successfully

moved for several stays of the appeal while it sought to overturn the precedent upon
which the district court relied on granting relief. Pet. App. 5a–6a. The Fifth Circuit
eventually decided those issues in the Government’s favor. Most importantly for
present purposes, the Fifth Circuit held that Texas robbery was categorically violent
under the ACCA’s elements clause even though the crime could be committed by
recklessly causing another person injury while fleeing from a botched attempt at
theft. See United States v. Burris, 920 F.3d 942, 951–52 (5th Cir. 2019), cert. granted,
judgment vacated, 19-6186, 2021 WL 2519042 (U.S. June 21, 2021), and abrogated by
Borden v. United States, 141 S. Ct. 1817 (2021); on remand, 856 F. App’x 547 (5th
Cir. Aug. 19, 2021).
3.

Mr. Lipscomb urged the Fifth Circuit not to decide this case until this

Court handed down its decision in Borden. The Fifth Circuit refused to “delay” the
case “any longer.” On December 8, 2020, the appellate court vacated the district
court’s decision granting collateral relief, and ordered the district court “to reinstate
its original judgment.” Pet. App. 6a. The court issued its mandate immediately. The
district court did as directed, and Mr. Lipscomb was returned to federal prison, where
he remains to this day.
Reasons for Granting the Application
Mr. Lipscomb was sent back to federal prison because of an error. The Fifth
Circuit had held—erroneously—that Texas robbery was categorically violent under
the ACCA’s elements clause, even though the offense could be committed by
recklessly causing another person to suffer bodily injury. Pet. App. 5a–6a. The Fifth
3

Circuit refused to delay the decision below because it believed the question of
recklessness was “settled on the firmest foundations of our court.” Pet. App. 5a.
In fact, the issue was not settled. Borden unequivocally overruled Burris, and
specifically citing a Texas robbery prosecution as an example of a reckless crime that
should not count as a violent felony. Borden, 141 S. Ct. at 1831 (discussing Craver v.
State, 2015 WL 3918057, *2 (Tex. App., June 25, 2015)). Recognizing this, the Fifth
Circuit itself vacated the ACCA-enhanced sentence in Burris after that case was
remanded from this Court: “[S]imple robbery is not a violent felony for purposes of
applying the ACCA’s mandatory fifteen-year minimum enhancement because it could
be committed simply by recklessly causing another to suffer injury during a theft.”
United States v. Burris, 856 F. App’x 547 (5th Cir. 2021).
The Government now agrees that the Fifth Circuit’s decision here should be
vacated, too. U.S. Mem. 2. So long as the Fifth Circuit’s decision remains in place,
Mr. Lipscomb remains imprisoned. Once the decision is vacated, Mr. Lipscomb will
have an opportunity for release, whether that happens by operation of law as soon as
the Fifth Circuit’s decision is vacated or if he must take additional action in the Fifth
Circuit or district court.
Petitioner’s counsel has conferred with the Office of the Solicitor General. The
Government has stated that it has no objection to any expedited processing that the
Court deems appropriate.
Every day that Mr. Lipscomb remains in prison represents an additional,
irremediable injury. See Glover v. United States, 531 U.S. 198, 203 (2001) (recognizing

4

that “any amount of actual jail time” is sufficient to show prejudice on collateral
review). The Government agrees that the Fifth Circuit’s decision below should be
vacated, and so there is no reason to further delay Mr. Lipscomb’s release.
Conclusion
For all these reasons, Petitioner respectfully requests that the Court shorten
the time to issue judgment, and that the judgment be issued immediately, when the
Court grants the petition for certiorari.

Respectfully submitted on September 22, 2021,
______________________________
J. MATTHEW WRIGHT
Counsel of Record
Federal Public Defender’s Office
Northern District of Texas
500 South Taylor Street, Suite 110
Amarillo, Texas 79101
(806) 324-2370
matthew_wright@fd.org

5

